<html>
<title> - AVOIDING ANOTHER LOST DECADE: HOW TO PROMOTE JOB CREATION</title>
<body><pre>[Senate Hearing 111-585]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-585
 
       AVOIDING ANOTHER LOST DECADE: HOW TO PROMOTE JOB CREATION 

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 5, 2010

                               __________

          Printed for the use of the Joint Economic Committee

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-313 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Carolyn B. Maloney, New York, Chair  Charles E. Schumer, New York, Vice 
Maurice D. Hinchey, New York             Chairman
Baron P. Hill, Indiana               Jeff Bingaman, New Mexico
Loretta Sanchez, California          Amy Klobuchar, Minnesota
Elijah E. Cummings, Maryland         Robert P. Casey, Jr., Pennsylvania
Vic Snyder, Arkansas                 Jim Webb, Virginia
Kevin Brady, Texas                   Mark R. Warner, Virginia
Ron Paul, Texas                      Sam Brownback, Kansas, Ranking 
Michael C. Burgess, M.D., Texas          Minority
John Campbell, California            Jim DeMint, South Carolina
                                     James E. Risch, Idaho
                                     Robert F. Bennett, Utah

                    Andrea Camp, Executive Director
               Jeff Schlagenhauf, Minority Staff Director


















                            C O N T E N T S

                              ----------                              

                                Members

Hon. Carolyn B. Maloney, Chair, a U.S. Representative from New 
  York...........................................................     1
Hon. Kevin Brady, U.S. Representative from Texas.................    11

                                Witness

Hon. Alan B. Krueger, Assistant Secretary for Economic Policy and 
  Chief Economist, U.S. Department of the Treasury...............     3

                       Submissions for the Record

Prepared statement of Representative Carolyn B. Maloney, Chair...    22
Prepared statement of Dr. Alan B. Krueger........................    24
Prepared statement of Representative Kevin Brady.................    43
    Chart titled ``Reality vs. Forecast Unemployment Rate (%): 
      Actual vs. Stimulus Projections (2009-2014)''..............    45
    Chart titled ``Reality vs. Forecast `90% of the Jobs Created 
      . . .in the Private Sector'''..............................    46
Letter from Representative Michael C. Burgess, M.D., dated May 
  11, 2010, transmitting questions for Dr. Alan B. Krueger.......    47
Letter from Dr. Alan B. Krueger dated June 9, 2010, transmitting 
  responses to Representative Michael C. Burgess, M.D............    48


       AVOIDING ANOTHER LOST DECADE: HOW TO PROMOTE JOB CREATION

                              ----------                              


                         WEDNESDAY, MAY 5, 2010

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:00 p.m., in Room 
210, Cannon House Office Building, The Honorable Carolyn B. 
Maloney (Chair) presiding.
    Representatives present: Maloney, Hinchey, Cummings, 
Snyder, Brady, and Burgess.
    Senators present: Casey.
    Staff present: Andrea Camp, Gail Cohen, Colleen Healy, 
Jessica Knowles, Lydia Mashburn, and Robert O'Quinn.

OPENING STATEMENT OF THE HONORABLE CAROLYN B. MALONEY, CHAIR, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Chair Maloney. I believe meetings should start on time. I 
am going to start this meeting even though my colleagues on 
both sides of the aisle are on their way here.
    Today's hearing is aptly called ``Avoiding Another Lost 
Decade: How to Promote Job Creation.'' From February 2001 to 
February 2009, our economy gained a mere 293,000 jobs. As we 
are facing the greatest post-war economic crisis, we need to 
take another look at history. In contrast to the Bush 
Administration, during the Clinton Administration 22.5 million 
jobs were created, an average of 234,000 jobs per month.
    But even with the stellar Clinton job creation record, it 
would take 3 years for us to recreate the 8.4 million jobs lost 
during this recession. And that doesn't even factor in the 
additional 2.5 million jobs that were needed during the 
recession just to keep up with population growth. In other 
words, we are about 11 million jobs in the hole.
    The great recession has taken a tremendous toll on our 
economy and families across the country who are struggling to 
find work and make ends meet. Without the swift, effective 
response from policymakers, the great recession could have been 
another Great Depression.
    Signed into law less than a month after President Obama 
took office, the Recovery Act helped soften the blow of the 
recession and returned the economy to growth in the second half 
of 2009. It provided a tax cut to 95 percent of American 
families, extended unemployment benefits, expanded credit to 
small businesses, and provided a first-time home-buyers tax 
credit to help families purchase a home.
    The Recovery Act has been followed by other congressional 
actions to create jobs, including the Worker, Homeownership, 
and Business Assistance Act, which expanded the first-time 
home-buyers tax credit and enhanced small business tax relief, 
and the HIRE act, which provides tax incentives for businesses 
that hire out-of-work Americans. These actions are working.
    Under the current Administration, the employment report has 
shown steady improvement, with 162,000 jobs created in March, 
with three-fourths of these new jobs coming from the private 
sector. Manufacturing employment has been up for 3 straight 
months. On Friday, the JEC will hold its monthly hearing with 
the Bureau of Labor Statistics Commissioner to discuss the 
April employment data. I am optimistic that Friday's employment 
report will show another month of robust job creation, but we 
need to remain focused on job creation.
    Part of the solution will be to look back to the Clinton 
Administration and see what fueled job creation during the 
1990s. We need to recapture the spirit of innovation that 
fueled the economy for those 8 years.
    Another part of the solution will be to look at the last 
decade and not repeat the same mistakes. When we came out of 
the 2001 recession, job creation did not return to pre-
recession levels. We can't afford to repeat the mistakes of the 
last decade and rely on asset bubbles to fuel job creation. We 
are still dealing with the aftermath of the housing bubble 
bursting.
    But just as we fail to regain the job creation momentum 
after the last recession, we have also squandered a record 
budget surplus, leaving us with fewer options to address future 
challenges.
    Part of the path forward is continuing to invest in 
programs and policies that work. Yesterday, as part of the 
effort to create a wide net and look for innovative but 
effective approaches, the House Democratic leadership held an 
economic summit. At that summit, Professor Alan Blinder from 
Princeton said, ``I think the challenge for the Congress now is 
to devise budget packages that are efficient in terms of job 
creation, relative to any deficit increases that they cost. It 
is not easy.''
    In an effort to look for efficient solutions to the job 
crisis, the House of Representatives recently passed the 
Disaster Relief and Summer Jobs Act of 2010, which supports an 
additional 300,000 summer jobs for young workers--summer jobs 
that are particularly needed in this weak economy.
    But we also need to take some chances and be willing to 
place some bets. We should target those sectors that offer the 
best prospects for growth. We should recommit ourselves as a 
country to basic research that pays dividends well into the 
future in new industries and new jobs.
    It is clear that the private sector will drive the next 
expansion, but it is also clear that government needs to be an 
engaged partner, helping to build skills, to shine a spot light 
on new sectors and opportunities, and to fund research that can 
lead to the industries and jobs of tomorrow.
    We are very fortunate today to have Dr. Alan Krueger before 
us to discuss job creation. Dr. Krueger served as Chief 
Economist of the Department of Labor during the Clinton 
Administration and is an editor of and contributor to the book, 
``The Roaring '90s: Can Full Employment Be Sustained?'' We look 
forward to his testimony.
    I welcome my colleague, Mr. Snyder, for any opening 
statement he may have.
    Representative Snyder. I am glad to be here.
    Chair Maloney. And our Republican colleagues have not come 
yet.
    Are they on their way?
    They are on their way.
    So I am going to introduce Dr. Krueger and then yield back 
to my Republican colleagues when they come.
    Dr. Alan Krueger is the Assistant Secretary for Economic 
Policy and the Chief Economist at the Department of the 
Treasury. On leave from Princeton University, where he has 
taught since 1987, Dr. Krueger is published widely on a broad 
range of topics, including the economics of education, 
unemployment, income distribution, and even what makes people 
happy. In his other published work, Dr. Krueger showed that 
increases in the minimum wage do not lead to increases in 
unemployment. Dr. Krueger is one of the world's leading labor 
economists, and we look forward to his testimony this 
afternoon.
    So I recognize Dr. Krueger for as much time as he would 
like to use to express his thoughts today.
    Thank you for being here.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 22.]

  STATEMENT OF HON. ALAN B. KRUEGER, ASSISTANT SECRETARY FOR 
  ECONOMIC POLICY AND CHIEF ECONOMIST, U.S. DEPARTMENT OF THE 
                            TREASURY

    Dr. Krueger. Thank you very much, Chair Maloney.
    Thank you, Congressman Snyder, for coming. I appreciate 
that you mentioned the book, ``The Roaring '90s,'' that is a 
book I coedited with Bob Solow.
    Chair Maloney. Can you speak up? Is your mike on?
    Dr. Krueger. It is on.
    Chair Maloney. Maybe pull it closer to you.
    Dr. Krueger. That is a book that I edited with Bob Solow 
and I have to say, we reached a rather optimistic conclusion 
that the set of policies that did help produce the strong job 
growth in the 1990s could be replicated and extended. We saw 
that evaporate in the 2000s.
    What I am going to do in my remarks, which is elaborated in 
the prepared testimony, is to describe what seems to me to have 
gone wrong in the 2000s in terms of job growth. I reach a 
somewhat optimistic conclusion that, as we found in that book 
``The Roaring '90s,'' with the right set of economic policies, 
it is possible to see jobs growing again and to see the U.S. 
economy producing enough jobs for its expanding population.
    The failure of job growth in the 2000s was not inevitable. 
As Chair Maloney mentioned, we are meeting at a time when the 
U.S. labor market is beginning to show signs of improvement 
after moving through the worst downturn since, by some 
measures, the early 1980s and, by others, all the way back to 
the Great Depression. The unemployment rate is currently 9.7 
percent, down from a high of 10.1 percent last October. This is 
an improvement, but the number of people who want jobs but 
can't find them is still unacceptably high.
    The economy gained an average of 54,000 jobs per month in 
the first quarter of 2010, a vast improvement over the 750,000 
jobs lost per month in the first quarter of 2009. Yet even with 
these recent gains, 8.2 million jobs have been lost since the 
start of the recession in December 2007. A look at the jobs 
picture in the past decade, even before this recession hit, 
indicates that job market performance in the U.S. was poor 
relative to the 1990s across a number of measures. In other 
words, while the recession has taken a terrible toll on 
American workers, the job market during the first 8 years of 
the 2000s before the recession was already underperforming.
    If you look over an even longer stretch of history, as the 
first figure in my testimony shows, that despite occasional 
recessionary periods, the U.S. job market has steadily 
increased employment to accommodate our growing population. 
That trend came to a halt in the past decade.
    During the 1990s, the economy gained 22 million payroll 
jobs. By contrast, from December 1999 to December 2009, the 
economy lost almost 1 million jobs and nearly 3 million 
private-sector jobs. With no net job gains in more than 10 
years, it is no wonder that many analysts are calling this 
period the lost decade.
    And I want to emphasize that the jobs picture in the 2000s 
is weak, even if we exclude the losses that occurred during the 
recession. Over the first 8 years of the 1990s, the economy 
gained almost 16 million jobs. During the first 8 years of the 
2000s, however, payroll employment rose by somewhat less than 
half of that, just 7.5 million jobs.
    The lackluster job market performance is also evident in 
the employment-to-population ratio, which is the fraction of 
the working-age population that is employed. This ratio rose by 
1.3 percentage points in the 1990s and reached a record high in 
April of 2000. In contrast, during the most recent decade, the 
ratio fell nearly 5 percentage points and is now at a level 
that was last seen after the 1982 recession. And even before 
the most recent recession, the share of the population that was 
employed fell for both men and for women.
    After looking at this poor performance, I asked myself why? 
Did we get it wrong in this book, ``The Roaring '90s,'' or was 
the poor performance the result of changes in policy? Was it 
something inevitable due to technological change or 
globalization or perhaps demographics?
    One way to get a sense of whether this very weak trend, 
this disturbing trend in job growth in the 2000s was something 
that the U.S. was destined for is to look at other countries 
that have economies that are in some respect similar to the 
U.S. In particular, and my written testimony documents this, if 
we look at Canada, the UK, or the rest of Europe, we see a very 
different picture.
    Canada and Europe had nearly a 3 percentage point increase 
in the share of their populations that were working from 1999 
to 2007, while the U.S. saw a decrease of over 1 percentage 
point. This suggests to me that the poor U.S. labor market 
performance was not inevitable. Countries, such as Canada and 
the UK, were subject to the same international trends, had 
access to the same technological advances, and faced similar 
demographic shifts as the U.S., yet they managed to produce 
significant job growth of the 2000s, as the U.S. lost jobs.
    One point that I would highlight is that the U.S. has also 
lost its leadership in education. The U.S., if you look at 
older workers in the U.S., people 55 and over, the U.S. is 
number 1 in the world in average educational attainment and in 
the share of the population with a college degree. If we look 
at those 25 to 34 years old, we are not in the top 10 of the 
OECD. And if we look at high school graduation, excluding GEDs, 
we are in the bottom of the OECD.
    One of the advantages that the U.S. has had is that we were 
the first to have universal high school. We led the word world 
in the human capital of our workforce. And we have lost that 
advantage, and I think that that has contributed to our poor 
performance in the 2000s.
    The dominant feature, of course, in the jobs picture in the 
U.S. in the last decade was a sharp, sharp job loss during the 
financial crisis. Fully 4.2 million private-sector jobs were 
lost in the 6 months after the fall of Lehman Brothers in 
September 2008. This pace of job loss exceeded what one would 
have predicted, even from the sharp concurrent contraction in 
GDP by about 25 percent. Most likely, the panic that took hold 
of the financial markets spread to employers and other sectors, 
causing them to react more than normally to a contraction in 
demand for the goods and services by shedding workers.
    To better understand the dramatic loss in employment that 
we experienced in recent years, I have analyzed for this 
hearing unpublished research data from the Bureau of Labor 
Statistics. BLS prepared for me information from the job 
openings and labor turnover survey, better known as JOLTS, 
broken down by establishment size. I appreciate the effort that 
the BLS put into computing and double and triple checking these 
statistics for me. These data reveal that the experiences of 
small establishments in the wake of the financial crisis were 
notably different from that of larger establishments.
    In the months immediately following the crisis, small 
establishments responded by quickly laying off a large number 
of workers and closing down. While mid-size and large 
establishments responded by sharply cutting back on hiring. 
Larger establishments also increased layoffs moderately, but 
the increase was not as large as that seen by smaller 
establishments. This pattern is consistent with small companies 
having difficulties accessing credit to maintain employment 
when demand for their products collapsed in late 2008. While 
larger companies eventually had access to corporate debt 
markets that would turn to function, small businesses are more 
dependent on bank financing, which remains tight.
    The Administration's small business proposals, including 
the proposals to create a $30 billion small business lending 
fund and raise the cap on Small Business Administration 7(a) 
loans to $5 million, therefore, come at a particularly 
opportune time.
    The unpublished JOLTS data further highlight that the 
improvement in the labor market to date has been unevenly 
distributed across different sized establishments. Labor demand 
has trended up at large private-sector establishments since 
February 2008. Indeed, large establishments started increasing 
employment 8 months ago, beginning in September 2009, a 
possible sign of durable job growth.
    Labor demand by smaller establishments, however, has 
continued to be weak, with low rates of new hires in 
particular. The challenges faced by small businesses remain a 
significant concern to the Administration, particularly in 
light of the fact that small businesses disproportionately hire 
minority and less skilled workers.
    In summary, the past decade could be characterized as a low 
pressure labor market, punctuated by a deep recession at the 
decade's end. The consequences of a low pressure labor market 
are obvious: job growth that is not strong enough to 
accommodate a growing labor force results in higher 
unemployment. Unemployment carries severe personal and social 
costs and can also reduce future economic performance as out-
of-work individuals see their skills atrophy and their 
attachment to the labor market erode. A chronically weak labor 
market has also been found to raise income inequality and 
increase poverty.
    For all these reasons and more, the Administration is 
committed to working with Congress to enact policies to promote 
sustainable job growth. These policies are focused on both the 
short run and the longer run. Short-run policies include such 
things as creating a small business lending fund to improve 
credit to small businesses, as I mentioned; summer jobs, as 
Chair Maloney mentioned; aid for State and local governments; 
and an increase or an extension of unemployment insurance 
benefits. Long-run policies include investments in education, 
innovation, and infrastructure.
    With that, I am happy to take any questions you might have.
    [The prepared statement of Dr. Alan B. Krueger appears in 
the Submissions for the Record on page 24.]
    Chair Maloney. Well, thank you so much, and this is 
certainly, I would say, a top priority on both sides of the 
aisle, coming up with ideas of ways that we can help our 
recovering economy hire more people.
    And I am interested in your comments on the disparity 
between hiring among large and small companies. You noted that 
the labor demand has picked up significantly for larger 
companies, with large establishments increasing employment in 5 
of the last 6 months, but at smaller companies, demand for 
labor remains very low. And part of that weak demand for new 
hiring reflects the reality that small businesses are more 
dependent on bank lending, which is still very tight and which 
may be limiting their growth.
    You mention that the President, in his State of the Union, 
talked about the $30 billion TARP money loan program. Could you 
comment on where that stands at this point? And also, what 
impact do you believe the Administration's proposal to raise 
the cap on Small Business Administration 7(a) loans to $5 
million could have on small business hiring?
    Dr. Krueger. I think the diagnosis is right, that the 
sector or the segment of employers that are lagging most behind 
now in hiring is small businesses. I think that that is a 
common pattern after recessions that are caused by financial 
crises. Our data are not all that great in looking 
historically, and fortunately, we don't have all that many 
financial panics to look at. However, normally it appears that 
when we have a recession that is not caused by a financial 
panic, small businesses are a moderating force. They tend to 
pick up earlier and to contribute less to job losses on the way 
down. That was the case in the recession in the early 2000s and 
then the recovery.
    In the current climate, however, it seems to be the 
reverse, and larger companies, which as I mentioned, have more 
access to credit markets because they have access to corporate 
bond markets, do tend to be expanding more.
    So that suggests to me that one avenue is to work directly 
on improving credit markets. And quite a bit of effort has been 
put into trying to stabilize credit markets, as you know, 
trying to strengthen banks to have them raise capital where 
they are in a position where they can lend.
    And the Administration's proposal to take funds from TARP, 
to separate it from the TARP program, because TARP has a stigma 
attached to it and the banks that would be the vehicle for 
doing the small business lending weren't necessarily the source 
of the financial problems that we face; to take these funds, 
invest them in viable banks, invest the capital in these banks 
at an interest rate of, say, 5 percent. If the banks increase 
their lending to small businesses, lower the interest rate. 
That gives them a strong powerful incentive to increase their 
lending. And we have been working intently with the 
congressional leadership to try to move this proposal forward.
    On the 7(a) loans, the cap of a million dollars prevents in 
particular startups in certain segments for small businesses. 
For example, many franchises would require more than a million 
dollars for startup. And franchise companies tend to be fairly 
stable businesses and fairly stable employers. So raising the 
cap to $5 million I think will open up kind of a new segment 
for SBA lobes with potential beneficial consequences for job 
growth.
    Chair Maloney. Well, assuming we can get this legislation 
through, lift the cap, and have targeted money through Treasury 
and TARP for small businesses, how quickly could we expect 
increased capital to flow through to hiring?
    Dr. Krueger. Well, I think some of it is a matter of 
confidence on the part of the employers. I think some of it is 
that there is considerable amount of damage that was caused by 
the recession and a lot of uncertainty remains. If the dynamic 
changes to one in which companies are expecting to see demand 
increase, which they are seeing, if they are expecting the 
recovery to continue, and if public policy can reinforce those 
expectations, it is entirely possible that we can see a 
continuation of the improvement that we have seen in terms of 
job growth; although I have to say that the normal pattern 
after a recession is that unemployment declines painfully 
slowly. Job matching takes time in the job market, and 
unfortunately, the historical pattern is that unemployment 
declines very slowly after a recession.
    Chair Maloney. My time is up.
    Mr. Burgess is recognized.
    Representative Burgess. I thank the Chairwoman for the 
recognition.
    Just a couple of thoughts on some of the data that you have 
presented to us. You know, there is a pervasive sense that I 
get when I go home and talk to, particularly, the small- and 
medium-size employer that they are really not so much 
interested in another Federal program being created to help 
them. In fact, if anything, they say, spare us from another 
Federal program to help us; what we need is for you to stop 
doing the programs that you have been working on for the last 
14 months, specifically in that vein would be health care, cap 
and trade, and now the financial regulatory bill, all of which 
has had a fairly toxic effect on the environment in which small 
business exists.
    And I particularly heard from small employers after the 
passage of the health care bill, during the Easter recess, 
where individuals who employed folks--I would call them entry 
level jobs. They tend to pay just a little bit over the minimum 
wage. They typically do not have a lot of benefits associated 
therewith. And these folks were looking at the bill that we had 
just passed--it had just been signed into law in fact by the 
President--and say, according to our study of this, it is going 
to cost us if these individuals, because the benefits are low 
at these entry level jobs, if these individuals seek help for 
their health care through the exchange, we will be fined a 
significant amount of money for each one. So what that is 
telling us is, between now and 2014, to get rid of as many of 
these jobs as we possibly can. The message we are receiving 
loud and clear from you, Congressman, is, don't hire right now, 
because we are going to punish you if you do.
    Can you tell us anything to perhaps at least address that 
notion, and of course we haven't even touched the expiration of 
the 2001 tax policy, which is also very heavily on people's 
minds as well? So can you help us with at least, from the 
direction of the administration--I know the direction of the 
Democratic leadership here in Congress--but from the direction 
of the administration from the Treasury Department, can you 
help us with the direction on what you are doing to at least to 
allay and ameliorate the fears that small- and medium-size 
businesses have right now?
    Dr. Krueger. Thank for the question.
    I agree that a number of small businesses are concerned 
about health care costs. In fact, when they list their concerns 
in surveys, they often list health care costs and weak sales as 
among their top concerns.
    I think the health care bill that passed the Congress and 
the President signed into law will help to lower health care 
costs for many small businesses. Right away, they are going to 
be eligible for tax credits for providing health insurance.
    Representative Burgess. If I could, because my time is 
limited. I don't mean to interrupt, but just on that point, 
what I hear back from my small businesses, they say, this tax 
credit is fairly confusing. It is time limited. And 
realistically, the 6 million small businesses it was supposed 
to help, in all likelihood, according to the National 
Federation of Independent Business, is likely to provide help 
to less than 4 million businesses. And there is also concern 
because of the nature of the way that benefit or that tax 
credit is written that it will decay over time. So it is not 
seen as a solid backstop that the small businessman is looking 
for. They are looking at a fairly hostile environment, and they 
are looking for some sure footing. And I don't think that tax 
credit, in all candor, I don't think that provided it.
    Dr. Krueger. Well, I think their experience might be 
different from that. I think what they may find after the tax 
credit is made available, that it does provide relief to the 
small businesses that are already providing health insurance 
and for those who would like to but can't afford it. And my 
memory is that credit actually becomes more generous after 4 
years, not less generous, although that is something I can 
certainly double-check.
    I think that small businesses will also find that they will 
benefit from being able to participate in exchanges, because 
right now, in the small group market, they are paying very high 
administrative costs. So I think that when the health care bill 
is implemented, they may find that some of their concerns in 
fact were not well justified by what actually took place.
    Representative Burgess. But the sense now----
    Dr. Krueger. You also ask about tax policy, and let me also 
mention, of course, the President has supported extending the 
middle class tax cuts from 2001, 2003, for those earning below 
$250,000; that is the vast majority of small businesses. So the 
vast majority of small businesses in fact will continue to get 
a tax cut from the Administration's policy.
    Representative Burgess [continuing]. Unless their gross 
receipts are over $250,000.
    Let me just ask you a question. And of course, 
congratulations on the 1-year anniversary of your confirmation 
tomorrow. That is a milestone I am sure you are aware of.
    Dr. Krueger. I am now.
    Representative Burgess. In reading through your resume, and 
it is an impressive resume, but can you just give us a sense of 
the private-sector experience you had prior to coming to this 
position?
    Dr. Krueger. Oh, certainly. For 20 years, I worked in the 
private sector, Princeton University. I also have been in small 
business, also involved in writing textbook, so that is my most 
recent private-sector experience.
    Representative Burgess. Would you care to elaborate what 
the small business was?
    Chair Maloney. The gentleman's time has expired. The 
gentleman may answer his question, and then we need to move on.
    Dr. Krueger. My small business involved consulting, 
writing, and similar types of activities.
    Representative Burgess. Thank you.
    Chair Maloney. Congressman Snyder.
    Representative Snyder. Thank you, Madam Chair.
    And thank you, Dr. Krueger, for being here.
    I will continue a little bit on this discussion about 
health care because I think it is important. I think it is part 
of our job to, in the words of Dr. Burgess, ameliorate anxiety.
    One of the anxieties I have heard for nearly decades now 
from folks back home that our current health care system, and 
this is more a question to a labor economist, the efficiency 
that comes from people feeling like they are trapped in a 
current job because of health insurance; and it seems like it 
mostly happens with family businesses, and sons and fathers and 
moms and daughters that probably should have parted the company 
some years before find themselves staying at the same work site 
because of somebody developing a preexisting condition. They 
are apprehensive about moving on. What is your comment about 
how you see the impact of this bill may help the efficiency, 
the economic efficiency of our country by people being able to 
move around with more flexibility?
    Dr. Krueger. I think your point is exactly right. I think 
that job lock, the term that we use, is a potential concern for 
the job market. Employees, particularly if they have a 
preexisting condition or if they have a family member with a 
preexisting condition, may be reluctant to change jobs for fear 
of losing their health insurance coverage. Others who are 
workers may have a concern about starting a small business 
because they would have difficulty getting health insurance 
coverage.
    My father was a small businessman and he was fortunate 
that, when he started his company, he was covered by my 
mother's health insurance. So I know that is an issue for lots 
of people and the health care bill can help to ameliorate that.
    Representative Snyder. And those are people that we 
currently count as being taken care of under our current 
system. If you talked to them, your term job lock, they would 
actually feel like their economic prospects are limited, even 
though we would count them as currently a success.
    Dr. Krueger. That is correct. To the extent that job lock 
prevents people from moving to positions where they are more 
productive, that is inefficient for the economy. We have seen 
kind of a decline in labor turnover and movement across 
companies which might be indeed related.
    Representative Snyder. I have a couple of quick points I 
just want to leave with you before I ask another question. One 
of them is, I never pass up an opportunity when somebody from 
the Administration comes here to say, if you want to 
immediately do something about exports and about job creation, 
do something about Cuban trade policy. I come from a State 
where some studies have shown Arkansas would benefit the most 
from making it easier to trade, particularly agricultural 
products, with Cuba, and for a lot of us, it just doesn't make 
sense to have the restrictions on trade with Cuba that we do.
    The second point I want to make and, again, perhaps you 
want to get back to us on this, but I have had some discussions 
the last week or so, I am sure other members have, too, about 
the issue of nursing. And here we have something, there are a 
lot of jobs out there for nurses right now. It is anticipated 
those needs are not going to go away because of my generation, 
us aging Baby Boomers. The health care will continue to go up 
and up. But we have a real problem with inadequate numbers of 
faculty in nursing programs, specifically the Ph.D. type level 
of training to be a faculty member in a nursing program, 
because a lot of nursing programs don't pay faculty well enough 
to make it worthwhile for them to stay in a teaching position. 
They get lured away to other places of work.
    And consequently, you have nursing programs that would be 
willing to take substantially more students in order to meet 
the needs of nurses out there in employment, but we don't have 
adequate faculty. Maybe it has been going on for enough years 
now, that maybe there would be a need for a Federal look at 
that as a challenge; what can we do to encourage more folks to 
stay in a nursing faculty profession?
    I want to ask, yesterday or a couple days ago, I was at a 
company in Little Rock, a company from India that makes the big 
pipe that would transport natural gas and oil throughout the 
country. This is their 1 year anniversary, about 1 year in 
Little Rock; tens of millions of dollars in investment. They 
are now seeing an expansion. What role does international 
investment in the United States play in job creation?
    Dr. Krueger. I think it plays a very important role. To 
your point about exports more generally, I think that exports 
are going to play an important role going forward in job 
creation. If you look at the components of GDP and where is 
growth going to come from, exports are a very likely source. 
Foreign direct investment in the U.S. is also an important 
source of job growth and there are studies about quality of 
employment for those who work for foreign companies in the 
U.S., which also tends to be high.
    Representative Snyder. Thank you.
    Thank you, Madam Chair.
    Chair Maloney. Congressman Brady.
    Representative Brady. Thank you, Madam Chair.
    Since I was late, I would like to place my entire written 
opening statement in the record if I may.
    Chair Maloney. Yes.

    OPENING STATEMENT OF THE HONORABLE KEVIN BRADY, A U.S. 
                   REPRESENTATIVE FROM TEXAS

    Representative Brady. Thanks for being here today, Dr. 
Krueger.
    After reading your written statement, I was surprised that 
as Treasury's chief economist, you didn't mention the stimulus 
bill or assess its effect on employment in your written 
statement. I wonder if it is because the stimulus law has 
failed on so many accounts to deliver the employment growth 
that President Obama and congressional Democrats promised.
    The Administration predicted if Congress enacted a stimulus 
plan, the unemployment rate would not exceed 8 percent. We know 
where that is today, 9.7 percent. They predicted payroll 
employment would increase to 137.6 million by the end of this 
year; it won't come anywhere close to that. And the 
Administration forecast that 90 percent of payroll growth will 
occur in the private sector. Actually, the only growth has been 
in the Federal Government sector. The private sector has lost 
3.7 million payroll jobs since the stimulus was enacted.
    Secondly, when you make comparisons in your statement 
between payroll employment growth in the U.S., Canada, and the 
United Kingdom in the 1990s and the last decade, you say more 
payroll jobs were created in the United States during the 1990s 
than the last decade, while the reverse was true in Canada and 
the UK.
    Based on these statistics alone, you jumped to the 
conclusion, the United States had better economic policy in the 
1990s than in the last decade, but that comparison is gamed, 
because you don't place these statistics in context. It is 
where both or all three countries started that is the key.
    The U.S. economy in December 1999 was near the peak of a 
multi-business cycle sector boom that began in November of 1982 
for a number of reasons: marginal tax rate reductions, 
deregulation, openness of new customers through trade. It was 
combined with disinflationary monetary policies that Federal 
Reserve Chairmen Volcker and Greenspan pursued as well.
    And the United States began the last decade, though, with 
the recession caused by the collapse of dot-com stock bubble 
and the job destroying 9/11 terrorist attack, that didn't occur 
in Canada and the UK, and ended the decade with a recession 
caused by the collapse of the housing bubble. So it is not 
surprising U.S. growth in the last decade was not as strong in 
the 1990s.
    But the 1990s were not kind to either Canada or the UK so 
they started at a much lower base. Canada experienced a federal 
debt crisis and suffered as its resource exports fell after the 
Asian financial crisis. In the UK, the collapse of the 
exchange-rate mechanism on Black Wednesday triggered a severe 
recession. So it is not surprising the British and Canadian job 
growth was stronger in the last decade. They had nowhere to go 
but up.
    Finally, I find your observations on how the recession 
affects employment differently in small and large firms 
interesting. You attributed the difference on credit 
constraints on bank-dependent small businesses. I think you are 
partially right. Credit has been too tight.
    But I think, from a bigger standpoint in working with our 
smaller and mid-sized businesses, you would be ignoring other 
more important factors. That is Washington, D.C. There is an 
uncertainty created by the policies today; the businesses of 
all sizes tell me they are delaying critical hiring, 
investment, and expansion decisions for fear of proposals here 
in Washington by the White House and Congress regarding costly 
health care mandates, as Dr. Burgess said, higher energy 
prices, increased regulations, and now a slew of higher taxes 
on industry, on capital, international businesses.
    I think businesses have good reason to worry for all of 
those issues, especially the health care mandates, the fact 
that almost 90 percent of all small businesses will not be 
eligible for the tax credits in health care. Energy costs are 
driven up by cap and trade and a slew of new energy taxes, 
hidden gas taxes on the industry. And of course, the White 
House has proposed more than $100 billion of penalties on U.S. 
companies that export and sell abroad. So, as one owner of a 
company told me, it is hard enough to predict the market, but 
trying to predict Congress, too, forget it.
    To address that uncertainty, what small- and medium-size 
businesses tell me is that they need customers. Many of the new 
customers that they can reach are outside the United States, 
and other regions are recovering faster than we are. So my 
question is, to Dr. Snyder's question, why are we not opening 
up markets for new customers in Colombia, South Korea, and 
Panama? Why are we not moving more aggressively to counter Asia 
and the European Union as they cut trade agreements that leave 
our workers in the dust?
    Now Canada and the EU have cut deals with Colombia that 
have already cut our wheat and soybean and corn sales by half 
in a year. So we are not just losing customers, losing out on 
new customers, we actually are losing the ones we have. So why 
won't the Administration pursue new customers, give us a chance 
to sell to them?
    [The prepared statement of Representative Brady appears in 
the Submissions for the Record on page 43.]
    Chair Maloney. The gentleman's time has expired. You may 
answer the question.
    Dr. Krueger. Sure, there is quite a bit there to discuss. 
The Recovery Act, I think, is part of the answer, by the way, 
to the question that the businesses raised to you about 
customers. The Recovery Act helped to support aggregate demand. 
Support for the unemployed, for example, has led to more 
consumer spending in the U.S. economy. That creates jobs and is 
one of the forces that has helped to put the brakes on this 
very steep slide that the economy was going through.
    I think the Recovery Act is a critical reason why, after 
four quarters in a row of contraction in the economy, we have 
now had three quarters in a row of expansion. So the fact that 
I didn't emphasize the Recovery Act was mainly a result of the 
fact that I was looking backwards over the past couple of 
decades.
    On the international comparisons, I agree with you that 
there are many differences going on. You never have perfect 
controlled experiment when you look across national borders. I 
would point out, however, that in the beginning of the 1990s, 
the U.S. also had a recession, not too different than the 
recession from the early 2000s. They were both, by historical 
standards, fairly moderate recessions. So I think the starting 
conditions were fairly similar comparing those two decades.
    Representative Brady. The starting conditions of Canada and 
the UK in 1999, when you begin part of your comparison, you are 
saying were the same, because they were dramatically----
    Dr. Krueger. Oh, no, I am sorry, when you compare the U.S. 
performance in 1990s versus the 2000s.
    If you are making the international comparisons, I would 
make the argument that the U.S. had a lot of advantages going 
into the early 2000s compared to Canada and the UK. We had 
higher productivity and a budget surplus. We were starting with 
better educated workforces. We had more advanced in some 
respects adapting information technology, so I think one can 
make an argument that the U.S. started with many advantages.
    Representative Brady. When?
    Dr. Krueger. When you look at the 20-year period as a 
whole, the U.S. didn't perform better.
    Representative Brady. I understand. The point is, we were 
growing from a peak; they were growing from a valley.
    Representative Cummings. Thank you very much, Secretary.
    I want to go back to something that Mr. Snyder was talking 
about, and I think we in government, we want to be most 
effective and efficient in what we do. And it is clear, with 
adding some 32 million people to the insured rolls, that we are 
going to need more people, and by the way, with the population 
becoming older, we are going to need more people in the health 
care area. In this committee, as we have gotten reports every 
month about unemployment, we noticed that it seems that the one 
area that seems to not be losing jobs but adding them is health 
care.
    I am just wondering, what kind of coordination there is in 
the Administration, when we have got, for example, a 
historically black college in my district, 5 blocks from my 
house, where they--it is one of the best--has one of the best 
nursing schools in the country. They are turning away, for 
every one person they admit, 5 inner city young people who have 
done everything right, worked hard, and because of the very 
things Mr. Snyder talked about, faculty and space, they can't 
accommodate them. And I am trying to figure out, and what I 
have been saying to my colleges, I want them to look more at 
allied health areas and look more at things like nursing and 
whatever, because that is where the jobs are going to be.
    And I am wondering, the President talks about innovation, 
and I agree with him a million percent; we have got to be 
innovative. We also have to be effective and efficient. And 
then we have a large population that have lost their jobs and 
are not getting them back. They are not coming back. The 
research is showing that people have learned, a lot of these 
companies have learned to do more with less. So those jobs 
aren't coming back.
    So I am just wondering, what kind of coordination is there 
within the Administration to begin to steer some of our folks, 
both laid-off workers and our young people coming out of 
school, to say, look, green jobs, health care jobs, we need you 
in those areas, and how do we get them there? And how do we 
address, you didn't get a chance to address Mr. Snyder's 
question, how do we address questions like, turning away our 
own people, our own kids that have busted their butts and done 
everything they are supposed to do, and then they get to a 
point to go to school, and there is no opportunity for them? 
Talk to me.
    Dr. Krueger. I will tell you what I can. You asked about 
how coordination takes place within the Administration.
    Representative Cummings. Yes.
    Dr. Krueger. Obviously, the health care workforce is not a 
mainline Treasury Department issue.
    Representative Cummings. I understand that.
    Dr. Krueger. Nonetheless, through the interagency task 
force, I have been involved in discussions about, how do we 
train enough health care workers for what is an expanding 
sector and will continue to be an expanding sector, given our 
demographics. Within the Administration, both health care 
working groups, which were headed by Nancy-Ann DeParle, 
considered issues about health care professionals. And then, 
within the DPC and the National Economic Council, there are 
also interagency groups that have looked at the question of 
where do we get the biggest bang for the buck in terms of 
education dollars? Where does it have the most immediate return 
in terms of job creation? I would have to say I agree 
wholeheartedly that nursing is one profession where we do have 
demand, where workers can be retrained or the flow of workers 
can be expanded, because some nursing degrees only require 2 
years; others require 4 years. But there are, of course, issues 
in terms of building up the infrastructure for training that 
workforce. And I would also add very big regional differences 
across the country. In some areas, tremendous difficulty with 
recruiting enough doctors, and perhaps in those areas, nurses 
can perform----
    Representative Cummings. It is not just nurses. It is 
allied health, all those fields, people who look at your X-
rays, take your X-rays, physical therapists, all of them. So I 
will talk to the folks in the Administration because I really 
want to see us address that more effectively and efficiently.
    Let me ask you this, because I see my time is running out. 
I know that you wrote a recent paper about the unemployed and 
life satisfaction and intense sadness. A lot of people don't 
realize that when a person loses their job, it is more than 
just losing some money, isn't it?
    Dr. Krueger. Chair Maloney mentioned my work on happiness, 
which I appreciate. This work was more on misery.
    We had looked at how people spend their time, how they feel 
about their lives. And what is striking about unemployment is 
it doesn't only affect people while they are unemployed; it has 
a lasting effect. And many of life's events, people are 
tremendously resilient; they adapt to them. But unemployment 
seems to last for a very long time period in terms of scarring 
people's psychological well-being.
    And one concern is that with the high rates of unemployment 
that we have, especially long-term unemployment, that that 
could have an adverse effect on people going forward in terms 
of their ability to get jobs in the future because they maybe 
have become isolated. So I think it is particularly important 
for the unemployed to make productive uses of their time, to 
volunteer in their community if they can, to spend time working 
around their house and their neighborhood, and not to become 
isolated, which could have an adverse effect down the road.
    The field of looking at people's subjective well-being has 
been advancing very rapidly, and economists tend to be very 
skeptical about what people's responses are about how happy 
they are or how sad they are. What I think the research is 
showing is that people's self-reported well-being measures do 
seem to be predictive of their future outcomes. And 
unemployment is one of those life events which has a long-
lasting negative effect on well-being, which is why it is so 
important, as you all know, why it is so important to do what 
we can to continue the recovery and ensure sustainable job 
growth.
    Representative Cummings. Thank you, Madam Chair.
    Chair Maloney. Thank you.
    Senator Casey.
    Senator Casey. Thank you, Madam Chairwoman.
    Dr. Krueger, thank you for your testimony and for your 
public service.
    Just by way of a predicate for a couple of questions, I 
don't think there is any question right now that we are 
recovering. The economy is growing, which is a dramatic change 
from a year ago or less. And I believe the recovery bill is 
having a very positive impact on the economy. We may not be 
doing a very good job of talking about those positive impacts, 
but that is our fault. And at the same time, the unemployment 
situation is better than it has been, certainly better than a 
year ago. Job loss is down, and job gains are up, but it is 
still far too high. We have to acknowledge that figure.
    In Pennsylvania, we have a 9 percent unemployment rate, 
which a lot of big States would prefer to their own rate, but 
that 9 percent still means 582,000 people out of work.
    The question that I want to ask you centers on small 
business and really three basic words: Access to credit, which 
is a continuing frustration. I have been hearing about this 
from the beginning of the recession, but we are still hearing 
about it today. Something is still not working in terms of the 
access to credit that small businesses need and are asking for.
    I just want to get your thoughts, I guess in two parts, 
assessing the strategies that have been put in place so far in 
terms of their success, but secondly, more importantly, what 
can we do going forward to make sure that we are providing that 
kind of access to credit, which is going to be the driving 
force to keeping the unemployment rate a lot lower?
    Dr. Krueger. The first requirement was to stabilize the 
financial system, and that required the financial stability 
plan, TARP investments in banks, and the stress tests, which 
were enormously beneficial. I think history will show that they 
were a turning point in terms of encouraging banks to go out 
and raise private capital. The banks were far more able to 
raise private capital than I think many people expected. That 
was necessary, but it hasn't been sufficient.
    Additionally, targeted efforts, particularly for small 
businesses, I think would be helpful. As I mentioned earlier, 
raising the cap on SBA 7(a) loans to $5 million will help 
certain lines of small businesses get started, particularly 
franchises, which tend to be more stable businesses.
    And I would just highlight the President's proposal to take 
$30 billion from TARP; there is the head room that is available 
to do that to create a small business lending fund. Use that to 
take capital and invest it in banks. Lower the interest rate 
that they pay to the Treasury on those funds if they increase 
their small business lending. I think that will give them a 
strong incentive to raise their small business lending.
    I have to say I am particularly worried about our start-up 
companies. The data that I was able to show you in my testimony 
looked at existing establishments. Another set of problems 
revolve around start-ups and trying to support new businesses 
to form, because ultimately, that will be the source of job 
growth in the future.
    Senator Casey. I just want to clarify on the new fund you 
would create with $30 billion of TARP money; you are talking 
about using those resources to get to community banks so they 
can loan to small businesses in their regions?
    Dr. Krueger. That is right. In our proposal only banks with 
below $10 billion in assets would be eligible, and those below 
a billion dollars in assets would be eligible for a higher 
share of capital. Our view is that those are the banks in the 
best position to decide which the best businesses to invest in 
are. That is their business. That is their specialty, but if we 
could give them the funds so that they could leverage up to 
invest in businesses, that that is probably one of the best 
ways that government can try to increase the flow of credit to 
small businesses.
    Senator Casey. Thank you very much.
    Chair Maloney. Thank you, we have been called to a vote, 
followed by several 5-minute votes.
    I am going to call on Mr. Hinchey now.
    Representative Hinchey. Thank you very, much Madam Chair.
    And thank you, Dr. Krueger.
    I am impressed with reading your testimony, and I am sorry 
I wasn't here to listen to you in your presentation that you 
made. I am sure there were a number of important things that 
really need to be dealt with.
    Representative Hinchey. One of the ways in which you 
describe the last period of time that we are dealing with is 
the lost decade with little net job growth, which, of course, 
is exactly right.
    Part of the problem that we have been facing here is a lot 
of expenditure of money but no money being extended in ways 
that are going to stimulate the economy, and have positive 
impacts on the internal needs here in the country to promote 
internal growth, generate jobs and to make life better. A lot 
of the money has been wasted, and it was wasted in providing a 
concentration of wealth in the hands of the wealthiest 1 
percent, and was wasted on spending money in Iraq. That number 
is getting now close to $1 trillion that has been spent over 
there, which shouldn't have been spent at all. The focus of our 
intention really has got to be internally, here in the internal 
needs of this country. These needs have not really been 
adequately addressed.
    So you may have spoken about this already, but maybe you 
want to say a little bit more about what really needs to be 
dealt with. What kind of internal investments we should be 
making? What are the kinds of things that we should be doing?
    The investment program we have, which is called the 
stimulus bill, has had a positive effect on the economy; it has 
been creating jobs. But it would seem to me that more is 
needed; more is needed primarily because so little has been 
done in the past. Now, we need to begin to catch up with the 
internal needs of this country.
    One of the aspects of the internal needs is an improvement 
in technology, and one of the most important aspects of 
technology is energy. Our dependence on fossil fuels is 
something that really should be changed.
    Do you think that we should be focusing attention on 
alternative energy, focusing attention on ways in which we can 
generate energy more effectively, solar, for example, and other 
ways? Are there things like that that we should be paying 
attention to and putting funds into?
    Dr. Krueger. Thank you very much for raising such a big 
issue.
    I think there are many dimensions of investment that have 
been neglected in the U.S. I highlighted in my remarks earlier 
education. The U.S. has lost its lead in education. Ultimately, 
in the long run, there is no reason why jobs wouldn't be 
attracted to the place or employers wouldn't be attracted to 
the place where they get the best value. And the main resource 
we have in the U.S. is our people.
    So, first and foremost, I think, for sustainable job 
growth, we need to improve the quality of our education and the 
quantity of our education. Secretary Duncan has pursued a 
number of different and innovative programs to try to get the 
most bang for the buck in our education dollars.
    One area I would highlight is support for Pell Grants for 
those going to 2-year colleges, junior colleges, or community 
colleges, which a lot of research suggests has very high payoff 
for those who are going through those types of educational 
programs.
    But you mention a number of priorities and I would also 
add, going forward, given the high rate of unemployment that we 
have, extending unemployment benefits further. Also the COBRA 
support, which I think is an unprecedented initiative to try to 
help the unemployed maintain their health insurance while they 
are unemployed.
    So I think there are many, many areas, and you highlight 
some of the most important ones.
    Representative Hinchey. I very much agree with you, and one 
of the things that I think that we should be focused on is the 
energy issue because we are seeing examples of the way in which 
our dependence on fossil fuels is not only driving up the 
price, but it is also driving up contamination and tragedies 
and a whole host of things that we are experiencing. So there 
are a lot of things that have to be dealt with there.
    Your focusing attention on education, of course, is 
critically important. We have passed in the House of 
Representatives a significant bill which would provide 
additional funding, a significant amount of funding for 
education. That is one of a number of very critically important 
bills which would have very positive effects on the economic 
conditions that haven't been dealt with in the Senate.
    Do you think that something should be done? What can be 
done? Is the whole 60 number issue something that has to be 
dealt with? We are impeded because of the circumstances in the 
Senate and particularly with education.
    What do you think?
    Dr. Krueger. Well, my expertise is in economics, not in 
congressional analysis, so I really don't have something to add 
on relations with the Senate in terms of passing that bill.
    But I do agree with your comments about energy. And I would 
also add the importance of improving our infrastructure, as the 
Recovery Act tries to do and as the President has proposed 
further infrastructure investments. Infrastructure will help 
put displaced construction workers back to work now and raise 
productivity in the future.
    So I think there are a number of areas in investment that 
have been neglected.
    Representative Hinchey. Thank you.
    Chair Maloney. Thank you so very much, Dr. Krueger. We are 
very fortunate to have you as our Chief Economist and Assistant 
Secretary at the Department of the Treasury.
    Regretfully, we have been called for a long series of 
votes, so we are going to have to adjourn. I have additional 
questions and my colleague on the other side of the aisle, 
Congressman Brady, has some, and we will be submitting them to 
you in writing.
    Again, thank you for your testimony. We were really very 
grateful for your testimony today.
    The hearing is adjourned.
    [Whereupon, at 2:05 p.m., the committee was adjourned.]
                       SUBMISSIONS FOR THE RECORD

 Prepared Statement of Carolyn Maloney, Chair, Joint Economic Committee
    Today's hearing is aptly named ``Avoiding Another Lost Decade: How 
to Promote Job Creation.''
    From February 2001 to February 2009, our economy gained a mere 
293,000 jobs.
    As we are facing the greatest postwar economic crisis, we need to 
take a look at history.
    In contrast to the last Administration, during the Clinton 
Administration, 22.5 million jobs were created, an average of 234,000 
jobs per month.
    But even under the stellar Clinton job creation record, it would 
take 3 years for us to recreate the 8.4 million jobs lost during this 
recession.
    And that doesn't even factor in the additional two and a half 
million jobs that were needed during the recession just to keep up with 
population growth. In other words, we're about 11 million jobs in the 
hole.
    The Great Recession has taken a tremendous toll on our economy and 
families across the country who are struggling to find work and make 
ends meet. Without the swift, effective response from policymakers, the 
Great Recession could have been another Great Depression.
    Signed into law less than a month after President Obama took 
office, the Recovery Act has helped soften the blow of the recession 
and returned the economy to growth in the second half of 2009. It 
provided a tax cut to 95 percent of American families, extended 
unemployment benefits, expanded credit to small businesses, and 
provided a first-time homebuyers' tax credit to help families purchase 
a home.
    The Recovery Act has been followed by other Congressional actions 
to create jobs, including:

    <bullet>  The Worker, Homeownership & Business Assistance Act, 
which expanded the first-time homebuyer tax credit, and enhanced small 
business tax relief; and
    <bullet>  The HIRE Act, which provides tax incentives for 
businesses that hire out-of-work Americans.

    These actions are working.
    Under the current Administration, the employment report has shown 
steady improvement with:

    <bullet>  162,000 jobs created in March, with three-fourths of 
those new jobs coming from the private sector;
    <bullet>  Manufacturing employment up for 3 straight months.

    On Friday, the JEC will hold its monthly hearing with the Bureau of 
Labor Statistics Commissioner to discuss the April employment data. I 
am optimistic that Friday's employment report will provide another 
month of robust job creation.
    But, we need to remain focused on job creation.
    Part of the solution will be to look back to the Clinton 
Administration and see what fueled job creation during the 1990s. We 
need to recapture the spirit of innovation that fueled the economy for 
those 8 years.
    Another part of the solution will be to look at the last decade and 
not repeat the same mistakes.
    When we came out of the 2001 recession, job creation did not return 
to pre-recession levels.
    We can't afford to repeat the mistakes of the last decade and rely 
on asset bubbles to fuel job creation. We are still dealing with the 
aftermath of the housing bubble bursting.
    But just as we failed to regain the job creation momentum after the 
last recession, we also squandered a record budget surplus, leaving us 
with fewer options to address future challenges.
    Part of the path forward is continuing to invest in programs and 
policies that work.
    Yesterday, as part of the effort to cast a wide net and look for 
innovative but effective approaches, the House Democratic leadership 
held an economic summit.
    At that summit, my friend Professor Alan Blinder said ``I think the 
challenge for the Congress now is to devise budget packages that are 
efficient in terms of job creation, relative to any deficit increases 
that they cost. It is not easy . . . .''
    In an effort to look for efficient solutions to the jobs crisis, 
the House of Representatives recently passed the Disaster Relief and 
Summer Jobs Act of 2010, which supports an additional 300,000 summer 
jobs for young workers--summer jobs that are particularly needed in 
this weak economy.
    But we also need to take some chances and be willing to place some 
bets.
    We should target those sectors that offer the best prospects for 
growth.
    We should recommit ourselves--as a country--to basic research that 
pays dividends well into the future--in new industries and new jobs.
    It's clear that the private sector will drive the next expansion. 
But it's also clear that government needs to be an engaged partner, 
helping to build skills, to shine a spotlight on new sectors and 
opportunities and to fund research that can lead to the industries and 
jobs of tomorrow.
    We are fortunate to have Dr. Alan Krueger before us today to 
discuss job creation.
    Dr. Krueger served as Chief Economist of the Department of Labor 
during the Clinton Administration and is an editor and contributor to 
the book ``The Roaring '90s: Can Full Employment Be Sustained.''
    We look forward to your testimony.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
            Prepared Statement of Representative Kevin Brady
    I am pleased to join in welcoming Dr. Krueger before the Committee.
    Although many economic indicators show signs of a recovery, the 
employment situation remains dire. As of last month, 15 million 
Americans were out of work for an unemployment rate of 9.7 percent.
    Given these grim employment statistics, I thank the Chair for 
convening this hearing on how to promote job creation. We should begin 
by examining President Obama's record on job creation.
    In January 2009, President Obama proposed an $862 billion stimulus 
plan. Two of the Obama's Administration top economists, Jared Bernstein 
and Christina Romer, forecast the economic benefits from Obama's 
stimulus plan, which the Congressional Democrats enacted the next 
month. This Romer-Bernstein forecast is the standard that the Obama 
Administration set to judge the success of its economic policies. So 
let's compare this forecast with reality:

    <bullet>  The Administration predicted that if Congress enacted the 
stimulus plan, the unemployment rate would not exceed 8.0 percent. The 
unemployment rate increased to 10.1 in October 2009, and remained at 
9.7 percent in March 2010.
    <bullet>  The Administration predicted that payroll employment 
would increase to 137.6 million in the fourth quarter of 2010. 
Actually, payroll employment was 129.8 million in March 2010, and would 
have to increase by about 867,000 payroll jobs per month to meet the 
Administration's forecast.
    <bullet>  Finally, the Administration forecast that 90 percent of 
payroll growth would occur in the private sector. Actually, the private 
sector lost 3.7 million payroll jobs from February 2009 to March 2010. 
The only sector in which the number of payroll jobs increased was the 
federal government.

    Let's turn to the other major items on the Democrats' economic 
policy agenda and assess their impacts on job creation.
    First, the recently enacted health care legislation will require 
employers to offer a costly government-mandated health plan or pay a 
fine of $2,000 per worker. Insurance premiums are likely to soar as the 
new system of guaranteed issue will cause some people to wait until 
they are sick before they buy insurance. It is not clear how widespread 
this practice will become. But, it is clear that the additional 
employment costs will discourage hiring.
    Second, the Democrats have proposed ``cap and trade'' legislation 
that would raise energy prices, require firms to use currently non-
existent technologies, and mandate an 80 percent reduction in 
greenhouse gases by 2050. Speaker Pelosi claims this bill is about 
creating ``green jobs.'' Spain has tried this approach and failed. 
Professor Gabriel Calzada Alverez found every ``green job'' created 
cost about $763,000. Far more jobs are destroyed by raising energy 
prices through ``cap and trade'' than ``green jobs'' are created.
    Third, the Democrats have proposed ``card check'' legislation to 
end the secret ballot for union representation elections and impose 
mandatory two-year contract through political arbiters on newly 
unionized firms if employers and unions cannot agree. This prospect 
discourages private business investment and job creation.
    Fourth, President Obama and Congressional Democrats have decided to 
let the 2001 and 2003 tax reductions expire at the end of this year and 
impose a 3.8 percent surtax on investment income effective in 2013. As 
a result, the maximum tax rates on capital gains and dividends will 
jump from 15 percent this year to 23.8 percent and 43.4 percent, 
respectively, in 2013. This Congress also stood by while our R&D tax 
credit expired last year.
    In 1990, our average combined federal and state corporate income 
tax rate was 6 percentage points lower than the average in other OECD 
countries. We were leading our competitors. Today, it is 9 percentage 
points higher--and now we are losing out to them.
    Despite the competitive disadvantages from the high U.S. corporate 
income tax rate and our system of worldwide taxation with deferrals and 
foreign tax credits, President Obama has proposed a grab-bag of hidden 
tax increases on U.S. corporations selling American-made goods and 
services overseas. And now, Administration officials and their friendly 
media outlets are beginning to hint that President Obama and 
Congressional Democrats may seek a value-added tax after the mid-term 
elections in November to fund their permanent increase in the size of 
the federal government. All of these tax policies discourage private 
business investment and job creation.
    Finally, Congressional Democrats have failed to ratify the already 
signed free trade agreements with Colombia, Panama, and South Korea 
that would boost U.S. exports by $13 billion and create 250,000 new 
high-paying jobs here in America.
    Taken together, the economic policies of President Obama and 
Congressional Democrats, however well intentioned they may be, are a 
hindrance to a robust job creation. If Americans wish to enjoy vigorous 
job growth, these economic policies must be reversed.
    I look forward to today's discussion.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
